APPENDIX TABLE OF CONTENTS
Memorandum Opinion of the United States
Court of Appeals for the Ninth Circuit
(April 10, 2019)........................................

la

Judgment of the United States District Court for
the Central District of California
(November 27, 2017)......................................... 7a
Order of the United States District Court for the
Central District of California Granting
Motion for Summary Judgment
(November 21, 2017)......................................... 8a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing En Banc (June 18, 2019)............... 16a
Motion Hearing Transcript
(November 20, 2017)

18a

Petition for Rehearing En Banc
(May 20, 2019)....................

35a

App.la
MEMORANDUM* OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
(APRIL 10, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
VERNON WENDELL RISBY,
Plaintiff-Appellant,
v.
KIRSTJEN NIELSEN, Secretary of
Homeland Security; TIMOTHY MOYNIHAN;
STACY M. SMITH; and JAMES HARRIS,
Defendants-Appellees.
No. 17-56946
D.C. No. 8:16-cv-02275-AG-JCG
Appeal from the United States District Court
for the Central District of California
Andrew J. Guilford, District Judge, Presiding
Submitted April 8, 2019** Pasadena, California

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes that this case is suitable for
decision without oral argument. Fed. R. App. P. 34(a)(2).

App.2a
Before: GRABER and BYBEE, Circuit Judges, and
ARTERTON, *** District Judge.
Plaintiff Vernon Risby timely appeals the district
court’s judgment in favor of Defendants Kirstjen
Nielsen, Timothy Moynihan, Stacy M. Smith, and
James Harris. The court dismissed one claim for fail­
ure to state a claim, and the court granted summary
judgment to Defendants on another claim. Reviewing
de novo both the dismissal, Gold Medal LLC v. USA
Track & Field, 899 F.3d 712, 714 (9th Cir. 2018), and
the summary judgment, Lee v. City of Los Angeles,
908 F.3d 1175, 1182 (9th Cir. 2018), we affirm.
1. We agree with Plaintiff that his claim against
federal officials, brought under 42 U.S.C. § 1983, may
be construed as a claim pursuant to Bivens v. Six Un­
known Named Agents of Federal Bureau of Narcotics,
403 U.S. 388 (1971). But the district court correctly
held that issue preclusion bars the Bivens claim.
In the complaint, Plaintiff alleged that the Law
Enforcement Officers Safety Act of 2004 (“LEOSA”)
grants him a right to an identification card and that
Defendants unlawfully denied him a LEOSA card. The
Supreme Court has clarified that a claim asserting a
statutory right may be brought only to the extent that
the statute grants a private right of action. Ziglar v.
Abbasi, 137 S.Ct. 1843, 1855-56 (2017). Whether Plain­
tiff may bring a Bivens claim seeking to assert a pur­
ported right under LEOSA thus hinges on whether

*** The Honorable Janet Bond Arterton, United States District
Judge for the District of Connecticut, sitting by designation.

App.3a

LEOSA creates a “private right of action.” Id. at 1856
(internal quotation marks omitted).
In Plaintiffs earlier action, the district court held
that “LEOSA does not establish a private right of
action.” In that earlier proceeding, that identical
issue was actually litigated and decided, was neces­
sary to the decision, and was decided after a full and

fair opportunity to litigate. Accordingly, in this case,
the district court correctly held that issue preclusion
bars Plaintiffs Bivens claim. See, e.g., Offshore Sports­
wear, Inc. v. Vuarnet Int’l, B.V., 114 F.3d 848, 850
(9th Cir. 1997) (describing the requirements for issue
preclusion).
y

Plaintiff may not, on appeal, broaden the scope
of the Bivens claim to assert employment discrimina­
tion. The complaint asserts only a right under LEOSA
and nowhere ties allegations of discrimination to this
claim. See, e.g, Boss v. Williams, 896 F.3d 958, 969
(9th Cir. 2018) (holding that we may not construe a
claim beyond the allegations in the complaint); Byrd
v. Maricopa Cty. Sheriffs Dep’t, 629 F.3d 1135, 1140
(9th Cir. 2011) (en banc) (“Even construing Byrd’s
pro se complaint liberally, the allegations failed to
state an equal protection claim because they asserted
only allegedly harmful treatment and mentioned
nothing about disparate treatment, much less about
the specific jail policy or gender classification in
general.”). In any event, Plaintiff is “barred from
bringing a constitutional challenge under [Bivendi
because Title VII provides the exclusive judicial
remedy for claims of discrimination in federal em­
ployment.” Zeinali v. Raytheon Co., 636 F.3d 544,
549 n.3 (9th Cir. 2011) (internal quotation marks

App.4a
omitted). The district court correctly dismissed this
claim.
2. The district court correctly granted summary
judgment to Defendants on Plaintiffs claims of dis­
ability discrimination in violation of the Rehabilita­
tion Act of 1973, race discrimination in violation of
Title VII, and retaliation for past Equal Employment
Opportunity (“EEO”) activity in violation of Title VII.
The “familiar McDonnell Douglas burden-shifting
framework” applies to all three legal theories. Campbell
v. Haw. Dep’t of Educ., 892 F.3d 1005, 1012 (9th Cir.
2018) (race discrimination); Curley v. City of North
Las Vegas, 772 F.3d 629, 632 (9th Cir. 2014) (disability1
discrimination); Emeldi v. Univ. of Or., 673 F.3d 1218,
1223 (9th Cir. 2012) (Title VII retaliation). Viewing
the evidence in the light most favorable to Plaintiff,
Martin v. City of Boise, 902 F.3d 1031, 1036 (9th Cir.
2018), even assuming that he has a prima facie case,
he cannot show pretext on any of his claims.
There is no evidence that, at the relevant time,
Agent Christopher Foster was aware of Plaintiffs
disability or EEO activity. Nor is there any evidence
that Foster acted on account of race. Plaintiffs specu­
lation to the contrary is insufficient to defeat summary
judgment. See, e.g., Loomis v. Cornish, 836 F.3d 991,
997 (9th Cir. 2016) (“Mere allegation and speculation

1 The Rehabilitation Act expressly adopts the standards under
Title I of the Americans with Disabilities Act of 1990. 29 U.S.C.
§ 794(d); see generally Fleming v. Yuma Reg’lMed. Ctr., 587 F.3d
938, 940-41 (9th Cir. 2009). “[Clases interpreting either [statute]
are applicable and interchangeable.” Douglas v. Cal. Dep’t of Youth
Auth., 285 F.3d 1226, 1229 n.3 (9th Cir. 2002) (internal quotation
marks omitted).

App.5a

do not create a factual dispute for purposes of summary
judgment.” (brackets omitted)).
Similarly, no evidence suggests that Agent Alfonso
Lozano was even aware of Plaintiffs disability, race,
or EEO activity, let alone that he or anyone else acted
on account of those attributes. Instead, the evidence
in the record suggests only that the invalid database
entry—which was never accessed until Plaintiffs
request for information—was an accidental mistake.
Finally, Plaintiff has not introduced sufficient evi­
dence to suggest that James Harris denied him a
LEOSA card for any discriminatory or retaliatory
reason. Instead, Harris stated that Plaintiff was
ineligible for a card because he was medically unfit to
carry a firearm. Harris’ decision is entirely logical
and appears to fall well within the bounds of the
agency’s internal policy. But even if his decision was
faulty in some way, an inference of pretext does not
arise solely from an honest mistake. See Villiarimo v.
Aloha Island Air, Inc., 281 F.3d 1054, 1063 (9th Cir.
2002) (holding that summary judgment was appropriate
even where the decision-maker’s reason is “foolish or
trivial or even baseless” (internal quotation marks
omitted)); see also Pottenger v. Potlatch Corp., 329
F.3d 740, 748 (9th Cir. 2003) (“[The defendant] has
leeway to make subjective business decisions, even
bad ones ”). The unexplained statement made to Harris
by Stacy Smith that Plaintiff is “crazy” does not give
rise to an inference that Harris discriminated against
Plaintiff because of a physical disability, race, or
EEO activity. See Nidds v. Schindler Elevator Corp.,
113 F.3d 912, 918-19 (9th Cir. 1997) (holding that
comments such as “old timers” and “we don’t necessarily

aaMHLMV
•(sasBO uoi^Buiuiuosip-aSB ui ^uamSpnf
AjBiuuins ^eajap XjiJBSsaoau ^ou op ((jxeq AaiS a5[ij
Btpddy

App.7a
JUDGMENT OF THE
UNITED STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA
(NOVEMBER 27, 2017)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
SOUTHERN DIVISION-SANTA ANA
VERNON RISBY,
Plaintiff,
v.
JEH JOHNSNON ET AL.,
Defendants.
Case No. SACV 16-02275 AG (JCGx)
Before: Hon. Andrew J. GUILFORD,
United States District Judge.
The Court enters judgment for Defendants and
against Plaintiff.
/s/ Andrew J. Guilford
United States District Judge
Dated: November 27, 2017

App.8a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE CENTRAL DISTRICT OF
CALIFORNIA GRANTING MOTION FOR
SUMMARY JUDGMENT
(NOVEMBER 21, 2017)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
VERNON RISBY,
v.
JEH JOHNSON ET AL.
Case No. SACV 16-02275 AG (JCGx)
Before: Hon. Andrew J. GUILFORD,
United States District Judge.
Proceedings: [IN CHAMBERS] ORDER GRANTING
MOTION FOR SUMMARY JUDGMENT
Plaintiff Vernon Risby, proceeding without an
attorney, sued Defendants Timothy Moynihan, Stacy
M. Smith, James Harris, and the Secretary for Home­
land Security for discrimination and retaliation, and
for denying him a Law Enforcement Officer’s Safety Act
(“LEOSA”) card. (Second Amended Compl., Dkt. No. 46
at 4.) The Court previously dismissed Risby’s claim
concerning his LEOSA card due to issue and claim
preclusion. (Dkt. No. 52.) The Secretary now moves
for summary judgment on all Risby’s remaining claims.

App.9a

The Court GRANTS the Secretary’s motion for
summary judgment. (Dkt. No. 59.) The Court will enter
a simple judgment.
1.

Preliminary Matters

The Secretary asks that the Court take judicial
notice of several documents, including Department of
Homeland Security directives and documents from
previous cases involving these parties. Under Federal
Rule of Evidence 201(b), a court may “judicially notice
a fact that is not subject to a reasonable dispute
because it.. . can be accurately and readily determined
from sources whose accuracy cannot reasonably be
questioned.” Courts may take judicial notice of
“undisputed matters of public record.” See Lee v. City
of Los Angeles, 250 F.3d 668, 690 (9th Cir. 2001).
Courts may also “take notice of proceedings in other
courts, both within and without the federal judicial
system, if those proceedings have a direct relation to
matters at issue.” See U.S. exrel. Robinson Rancheria
Citizens Council v. Borneo, Inc., 970 F.2d 244, 248
(9th Cir. 1992). Putting aside whether a request for
judicial notice was necessary here, the Court concludes
that it may appropriately consider these documents
in resolving the pending motion. See Fed. R. Civ. P.
56(c). Consistent with Federal Rule of Evidence 201,
the Court hasn’t taken notice of any disputed material
fact.
2.

Brief Background

The following allegations are taken from Risby’s
second amended complaint. (See Dkt. No. 46.)
Risby alleges that he is a former special agent
wdth the Department of Homeland Security’s Immigra-

App.lOa

tion and Customs Enforcement agency. Risby says that,
before he retired from DHS in April 2012, he “prevailed
on three prior [Equal Employment Opportunity Com­
mission] charges and established that DHS retaliated
against him for his EEO activity.” {Id. at 2.) Risby
alleges that, after he retired, he “was subjected to
harassment, retaliation and discrimination.” {Id)
Risby says that “Defendant denied Plaintiff a LEOSA
card that would have entitled Plaintiff to carry a
firearm nationwide due to Plaintiffs status as a
former federal law enforcement officer.” {Id) And
Risby alleges that “Defendant denied Plaintiff the
card in retaliation for Plaintiffs prior EEO activity,
and because of Defendants’ perceptions of Plaintiffs
disability.” {Id)
Risby says that, during March 2012, while he was
“settling another EEO case against DHS, Defendant
instituted a base less [sfd internal affairs investigation
against Plaintiff.” {Id) Risby alleges that the investi­
gation concerned “Plaintiffs contacting the subject
of private small claims lawsuit [sid that the Plaintiff
filed in Small Claims Court against the subject.” {Id.
at 2-3.) Risby alleges that “Defendant’s actions inter­
fered with Plaintiffs ability to resolve the civil action.”
{Id) According to Risby, the investigation continued
after he retired. {Id. at 3.)
Risby also alleges that “Defendant’s Office of
Inspector General . . . also willfully, wrongly, and
knowingly associated Plaintiffs social security number
with an entry in Defendant’s database in connection
with an allegation of child pornography.” {Id. at 3.)
According to Risby, “DHS falsely identified Plaintiff
as the federal official that was the subject of [a] child
pornography allegation.” {Id. at 3.) Risby alleges that

App.lla
the Office of Professional Responsibility “created a false
report against the Plaintiff with the intent to create
a record against Plaintiff.” (Id)
3.

Standard

Under Federal Rule of Civil Procedure 56(a), sum­
mary judgment is appropriate when “there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.” A motion
for summary judgment is designed to “prevent vexation
and delay, improve the machinery of justice, promote
the expeditious disposition of cases, and avoid unnec­
essary trials when no genuine issues of fact have
been raised.” 10A C. Wright & A. Miller, Federal Prac­
tice and Procedure § 2712, p. 236-38 (4th ed. 2016).
The essential inquiry for the Court is “whether the
evidence presents a sufficient disagreement to re­
quire submission to a jury or whether it is so one­
sided that one party must prevail as a matter of law.”
See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 251—
52 (1986).
At this stage, the Court must view the facts and
draw all reasonable inferences “in the light most
favorable to the party opposing the [summary judg­
ment] motion.” Scott v. Harris, 550 U.S. 372, 378
(2007) (quoting United States v. Diebold, Inc., 369
U.S. 654, 655 (1962) (per curiam)). The initial burden
is on the moving party to demonstrate the absence of
a genuine issue of material fact. Celotex Corp. v.
Catrett, All U.S. 317, 323 (1986). But if the moving
party carries that burden, then the nonmoving party
must produce enough evidence to create a genuine issue
of material fact. Id. at 322-23.

App.l2a

Also, the Court recognizes that Risby represents
himself in court without an attorney, meaning he is a
pro se litigant. “Although we construe pleadings lib­
erally in their favor, pro se litigants are bound by the
rules of procedure.” Ghazali v. Moran, 46 F.3d 52, 54
(9th Cir. 1995).
4.

.•vn

Analysis

It’s difficult to see precisely how Risby’s allegations
and claims fit together. (See Second Amended Compl.,
Dkt. No. 46.) But it seems Risby’s discrimination and
retaliation claims concern three distinct incidents: (l)
ICE’s denial of the LEOSA card; (2) the Office of Pro­
fessional Responsibility’s investigation into a car
accident involving Risby and a civilian; and (3) the
Office of Inspector General mistakenly placing Risby’s
name in a database concerning a child pornography
investigation. The Court addresses these three incidents
and their relationship to Risby’s claims in turn.
4.1

LEOSA Card

As the Court previously held, “the requirements
for claim and issue preclusion are satisfied here, and
Risby had a full and fair opportunity to litigate his
claim [concerning his LEOSA card] before this Court.”
(Dkt. No. 52 at 4.) Risby seems to continue to pursue
a claim for the unlawful denial of his LEOSA card
under his discrimination and retaliation claims. As
the Secretary points out, this raises serious concerns,
(^eeMot., Dkt. No. 59 at 22-23.) Although the Secretary
did not originally join the motion to dismiss Risby’s
LEOSA card claim on issue or claim preclusion grounds,
those principles continue to bar Plaintiffs litigation
of his LEOSA card claims. (See Dkt. No. 52 at 2.)

App.l3a
Accordingly, considering his “full and fair opportunity
to litigate [the LEOSA card claim] before this Court”,
the denial of Risby’s LEOSA card application cannot
serve as the basis for his discrimination and retaliation
claims. (See id.)
4.2

?■

Civil Complaint Investigation

Risby also appears to ground his retaliation and
discrimination claims in the investigation by the
Office of Professional Responsibility into a car accident
involving Risby and a civilian. Risby argues that the
agent working on the case instructed the civilian not
to contact Risby. (See Opp’n, Dkt. No. 65 at 7.) Risby
argues that this interfered with his “ability to suc­
cessfully settle the private lawsuit” concerning the
car accident. (Id.)
Under both Title VII and the Rehabilitation Act,
Risby’s claims rooted in the car accident investigation
fail. Risby provides no connection between the inves­
tigation and any adverse effect on his employment as
required for Title VII discrimination claims. See Davis
v. Team Elec. Co., 520 F.3d 1080, 1090-94 (9th Cir.
2008) (requiring a showing of an “adverse employment
action . . . that materially affect[s] the compensation,
terms, conditions, or privileges of. . . employment.”)
(internal quotation marks and citations omitted).
Similarly, Risby can’t support his discrimination claim
under the Rehabilitation Act, which prohibits “discriminat[ing] against a qualified individual on the basis of
disability in regard to job application procedures,
the hiring, advancement, or discharge of employees,
employee compensation, job training, and other terms,
conditions, and privileges of employment.” 42 U.S.C.
§ 12112 (emphasis added); see also 29 U.S.C. § 701(d).

App.l4a

Risby also hasn’t shown the required causal link
between his prior EEOC activity and the car accident
investigation, a necessary feature of his retaliation
claim. See TB ex rel. Brenneise v. San Diego Unified
Sch. Dist., 806 F.3d 451, 473 (9th Cir. 2015). Risby
argues that the agent investigating the car accident
knew about Risby’s previous EEOC claims. (Opp’n, Dkt.
No. 65 at 7.) But there’s no evidence to that effect.
Put simply, Risby cannot ground his discrimination
or retaliation claims in the car accident investigation.
4.3

Child Pornography Investigation

This is, perhaps, Risby’s most troubling allegation.
As mentioned, Risby says that he was listed in an
investigatory database as the suspect in a child por­
nography investigation although he was not actually a
suspect in the investigation. While this allegation is
difficult to stomach, especially since the Secretary
doesn’t dispute it, it simply cannot serve as the basis
for Plaintiffs discrimination and retaliation claims.
Again, there’s no connection between this allega­
tion and Risby’s employment. See, Davis 520 F.3d at
1090-94; 42 U.S.C. § 12112; 29 U.S.C. § 701(d). Indeed,
Risby didn’t discover that he was wrongfully associ­
ated with the investigation until more than two
years after he had stopped working for ICE. Also,
Risby hasn’t provided any evidence showing that the
agent who mistakenly entered Risby’s Social Security
number into the database knew who Risby was or
knew of his past EEOC activity. Brenneise, 806 F.3d
451 at 473.

App.l5a
Accordingly, the facts concerning the child porno­
graphy investigation do not support Risby’s discrimi­
nation or retaliation claims.
5.

Disposition

Even viewing the available facts in a light favor­
able to Risby, there is no dispute of material fact requir­
ing a jury’s resolution. See Scott v. Harris, 550 U.S.
at 378; Celotex, All U.S. at 323. So summary judgment
is appropriate.
The Court GRANTS the Secretary’s motion for
summary judgment on all Risby’s remaining claims.
(Dkt. No. 59.) The Court will enter a simple judgment.
lmb
Initials of Preparer

App.l6a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(JUNE 18, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
VERNON WENDELL RISBY,
Plain tiff-Appellan t,
v.
KIRSTJEN NIELSEN, Secretary of
Homeland Security; TIMOTHY MOYNIHAN;
STACY M. SMITH; and JAMES HARRIS,
Defendants-Appellees.
No. 17-56946
D.C. No. 8:16-cv-02275-AG-JCG
Central District of California, Santa Ana
Before: GRABER and BYBEE, Circuit Judges, and
ARTERTON,* District Judge.
Judges Graber and Bybee have voted to deny
Appellant’s petition for rehearing en banc, and Judge
Arterton has so recommended.
* The Honorable Janet Bond Arterton, United States District
Judge for the District of Connecticut, sitting by designation.

App.l7a
The full court has been advised of the petition for
rehearing en banc, and no judge of the court has
requested a vote on it.
Appellant’s petition for rehearing en banc is
DENIED.

App.l8a
MOTION HEARING TRANSCRIPT
(NOVEMBER 20, 2017)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
VERNON W. RISBY,
Plaintiff,
v.
JEH JOHNSNON ET AL.
Defendants.
Case No. SACV 16-02275 AG
Before: Hon. Andrew J. GUILFORD
Judge Presiding.
•ft* •„

[Transcript p. 1 to 20]
THE CLERK: SACV16-2275-AG Vernon W. Risby vs.
Jeh Johnson, et al.
THE COURT: Good morning, Mr. Risby.
MR. RISBY: Good morning, sir. Vern Risby, plaintiff
pro se.
THE COURT: Indeed.
MR. LASKE: Good morning, Your Honor.
Assistant United States attorney Tim Laske on
behalf of the defendant.

App.l9a

THE COURT: All right. Mr. Risby, you’ve appeared
in front of me numerous times. I’m always impres­
sed by your capabilities as a pro se and the respect
you showed to the process and your papers.
MR. RISBY: Thank you, sir.
THE COURT: It is, therefore, with a little reluctance
I issued the tentative I issued, but I’m very open
to argument. You have had some difficult times.
You know at one point in the papers, I think I
use the word stomach, but the—the bad database
allegations are undisputed by the government.
I’m wondering if the government wishes to dispute
that. Mr. Risby, I See there are things in here
that should have you concerned. I’m just looking
for the right claim for relief for you to get a remedy.
I guess there’s a statement that every breach of
rights has a remedy. I’m struggling to find if you
set one forth.
So I’m all ears in what you have to say, Mr. Risby.
Go ahead.
MR. RISBY: First of all, I’d like for the Court to keep
in context the individuals that I’m dealing with
within the government. I’m dealing with federal
agents. These are people who are trained to
clandestinely target an individual. So you’re not
going to have a DVD or maybe a surveillance tape
of these guys sitting around saying, hey, let’s go
out and get Vern; we’re going to do this; we’re
going to do that. You’re not going to have that.
They know how to clandestinely target someone.
Okay.
There is legally a documented pattern and practice
of discrimination against me by the agency. I’ve

App.20a
won three previous EEOC cases, which is very
rare. I’m sure you have been sitting on the bench
a long time. That something you don’t See very
much, if you See it at all.
In getting to the tentative, if I may, I’d like to
start in reverse order and go from the child porn
case up until LEOSA. LEOSA is a little bit more
complicated.
THE COURT: Yes. Okay. Let’s go.
MR. RISBY: Okay. Very good, sir.
THE COURT: Child porn investigation. I’m sorry you
have to be arguing that in public court. I mean,
it’s not a helpful thing.
MR. RISBY: No, it’s not.
THE COURT: Go ahead. By the way, since there are
people in the federal court, your argument is
there is nothing to it. It’s a mistake. You alleged
it’s a mistake.
MR. RISBY: I don’t allege it’s a mistake, sir. I allege
it was purposely done.
THE COURT: Fair enough.
MR. RISBY: The Court mistakenly—
THE COURT: Hold on. Sir, I was just trying to make
a record for the people—
MR. RISBY: I’m sorry.
THE COURT: I was trying to make a record for the
people remaining here in court. Your position is
it’s absolutely untrue.
MR. RISBY: Yes, sir.

App.21a

THE COURT: The government doesn’t seem to be
denying that.
MR. RISBY: Right.
THE COURT: Go ahead.

r:

MR. RISBY: What had happened was my Social
Security Number was placed, like I said for the
purpose of the people in court, on a record that
did not belong to me. It was sent up the chain, so
to speak, up the system in order to be put in the
OIG, the Office of the Inspector General database.
Because my Social Security Number was put on it.
my name populated and all my information
populated on this particular record. I believe
that it was done purposely in order to harass me
and further prevent me from ever being in federal
law enforcement or intelligence, again, should,
you know, my health get better and I’m able to
go back to work, or, you know, like I said, later
seek a position as like maybe an intelligence
analyst or even, as, you know, working for private
intelligence agency that contract with the gov­
ernment. It was done to keep me out of law
enforcement altogether or federal intelligence.
The agent who allegedly put my Social Security
Number on the LAX report form that was sent up
the chain, so to speak, says he doesn’t give a
proper reason why it happened. It’s like he got
caught. He’s like, oh, I don’t know how it happened.
I don’t think you can buy that in light of the fact
that I won three EEO cases. It just so happens
that the one person who won three EEO cases
against the government who litigated against them
further is now in this child pornography data-

App.22a

base—or in a database with an allegation of
child pornography. I just don’t think that-I don’t
think that’s something we can buy.
In regard to—I want to say that agent—it was a
GS14 level special agent. As you know, GS14 is a
significant number in the government as far as a
grade. You know—I mean, there is an SES, which
is like a 15, 16. Then there is GS14. So this is
someone who knew exactly what he was doing
when he did it.
In relation—you have to excuse me. I take my
glasses off to read, and to look at you, I put them
back on. I can’t See very far in distance.
As far the as the civil complaint investigation,
on page 5 of your—
THE COURT: Tentative.
MR. RISBY:—tentative, yes, sir. Forgive me.
THE COURT: That’s all right.
MR. RISBY: I’m nervous.
THE COURT: You do fine.
MR. RISBY: On page 5 of the tentative, on paragraph
one, you say, Risby argues that the agent
investigating the car accident knew about his
previous EEO claims, but there’s no evidence to
that effect.
Now, what I really claimed was the following: I
said that agents in the OPR knew of my EEO
activity because I had told a couple of agents
during the time when they were investigating me
previously when the accident first happened. Now,
this case was not the actual accident. This was

App.23a
when I was suing her for causing the accident.
The actual accident—the actual—I was investi­
gated because they said that—she had made an
allegation that I was rude to her and so forth at
the time of the accident.
During that time period, I had told the previous
agents that were investigating me about my EEO
activity with the government, and I thought that,
you know, they were targeting me there. The
reason why that is relevant is because within
OPR, you know, they don’t have that many alle­
gations that many agents that they open up
cases against on a day-to-day basis. So when they
do have an agent, it’s going to be pretty much all
over the office of what happened. I would prove
that in court because of the witnesses I would
call. People like Roman Villa, (phonetic) who was
the agent investigating me who I told that to. His
partner, who I think Mr. David Feifel, (phonetic)
I believe, who had also given a statement in this
case.
I said in my opposition motion that Mr. Foster
had knowledge of my race, which he clearly did,
because in the exhibit, which I believe is Exhibit
4, there is a photograph of me, because when
agents open a case—I can tell you this from my
own experience. When you open a case on an
indi vidual, you get a photograph, whether it’s a
driver’s license photograph, or a mug shot if
that’s all you have. It’s in the case file so that
you can further identify these individuals.
Mr. Foster had a photograph of me, which is
Exhibit 4. Okay. It was dated three—March 3—26
of 2012. It was the date, I guess, he pulled it off

App.24a

the computer. Whatever. So he clearly had know­
ledge of my race even though he says he didn’t
until the—until the court case in May of 2012
when I appeared in small claims court against
Ms. Murphy, which I was already, you know,
retired by then. I retired in April. So—or was
separated, I should say, in April.
Now, also on this, what is most troubling is he
instructed—he says—these are his words in his
affidavit. His—I mean, Mr. Foster or Special Agent
Foster. He said he instructed Ms. Murphy not to
have any communication with me, personal,
telephonic, or any type of communication. Those
are his words in his own affidavit which he is
sworn to. That was part of his case file, not just
the affidavit before EEO or before this Court. So
if he instructed her to do so, you know, that is
clearly, I believe, a violation of procedural due
process, because when—when have we in our
democracy allowed governmental interference in
a private lawsuit, particularly by law enforcement.
So this was done further to harass me and to limit
my abilities to settle the case with Ms. Murphy.
And an additionally, Exhibit 27, which I unfor­
tunately, I had numbered it accidentally Exhibit
26. There is an e-mail of Mr. Foster conspiring
with his supervisor in order to bring some
perjury charges against me in July of 2012. In
that e-mail he says, hey, looks like Risby is
asking for more money from the Court against Ms.
Murphy. You know, he says that he had to retire
due to his injuries. Well, I guess if he didn’t
retire due to injuries, it might be perjury. I’ll See
you in a bit. Meaning, they were going to get

App.25a

together to discuss it. Now, that’s July of 2012. I
left the agency in April 2012. The case of me and
Ms. Murphy was in May of 2012. They had no
reason to continue investigating me but to further
harass me.
Now that brings us to LEOSA, which is something
we talked about before. This case is unique. First
of all, this is a discrimination case. The writ of
mandamus was a case more on procedural, what
they didn’t do. They didn’t give me a LEOSA card.
This case is about why they didn’t do it. Totally
separate. This is an EEO case that derived out of
the EEOC. They had not issued a ruling. Well,
on all three—yeah. On all three of the issues,
they hadn’t issued a ruling within 180-day time
frame. So I took the case to federal court, which,
you know, is my right.
So I believe that this Court had previously allowed
this case to go forward because I know that you
had dismissed the allegations of 42 USC 1983 that
I had brought forth, you know, based on Dewberry
decision out of the Washington, D.C. Appellate
Court. You had dismissed that one. I think at
that time I said okay, so we can go forward with
the rest of case? You said, yes. Even Mr. Laske,
counsel for the defense, said yes, I believe this
case is a Title VII related matter. That’s why we
decided to go forward.
I have proved via evidence in the file that Mr.
James Harris and Ms. Stacy Smith committed
perjury not only in their EEOC statements, but
in their declarations against (sic) the Court.
They said that they didn’t know my race or my

App.26a

EEO activities. They knew of my race because both
say that they reviewed the application.

,»>.f t.

&

Now, the application process—when—when you
make the application for LEOSA, you have to put
forth a photograph. That is so they can put your
photograph on a LEOSA I.D. card. In addition,
there was a written statement that I had wrote
(sic) in the application which—I mean, all of this
is part—these are exhibits in the opposition
motion. There was a statement in my application
where I mention there was some EEO litigation.
I mention the fact that I was on federal workers’
comp. I’m still on federal workers’ comp at this
time. If 3'ou’re on federal workers’ comp, sir,
that’s due to on-the-job related injuries. So,
therefore, they knew not only of my race, they
knew of my on-the-job-related injuries and they
knew of my EEO activity.
Ms. Smith and Ms. Harris (sic) both claim that
part of the reason for the denial was for being
medically unable to meet ICE firearm standards.
Now, also in the ICE directive that Mr. Laske
had quoted in his statement, there is a portion
where they say—I’m not quite sure. I think 6.2,
6.3, somewhere in there. Where ICE states that
it will not qualify anyone for the LEOSA. card.
Qualification means—I don’t know if you’re a
firearms enthusiast or not-—going to the range
and actually going through a range of fire, you
know, at a target to, quote, qualify. That’s done
by the states.
So even if I did not meet ICE firearms standards,
it doesn’t make any difference, okay. If you—if
you are separated because of a medical condition,

App.27a

obviously, you’re not going to meet the firearms
standards. So you don’t meet the standards for
the position any longer. So—and in the LEOSA
statute, it clearly said if you are separated due
to on-the-job injuries, you can qualify for a
LEOSA. So their reasoning is just a pretext of—
well, that’s just plain and simple disability dis­
crimination, I would say, right there. That’s evi­
dence of it.
Please forgive me, sir. Let me—
THE COURT: I need to know how much more time you
need?
MR. RISBY: Five minutes, maybe? Three?
THE COURT: Let’s—
MR. RISBY: We’ll wrap it up.
Their arguments of good standing. They have no
credence. I have provided overwhelming evidence
of good standing. Number one, my credentials,
which there is a directive I included as one of my
many exhibits from the named defendant that was
signed by the named defendant Ms. Duke that says
the retired credentials, which I have which ICE
issued to me or Homeland Security Investigations
issued to me, clearly show that I retired in good
standing, because in her directive, it says agents
who retire in good standing will receive their
retired credentials—I mean, which is evidence of
retiring in good standing. I may be paraphrasing
a bit. I think I did the direct quote in my opposition
motion.
Also—now this is the most troubling thing. There
are only three individuals that were denied LEOSA

App.28a

cards, myself and an individual named—former
agent named John Liska, (phonetic) a former agent
named John Alvarez. All three of us have previous
EEO activity in one form or another. I believe
Mr. Liska actually filed an age discrimination
case against the agency during his working time.
Mr. Alvarez testified against the government in
an actual discrimination trial. He testified in
favor of another agent. Their statements are also
exhibits in the opposition motion.
So, you know, I would ask that you allow this
case to go to a jury so that I can put forth a
letter to See these allegations. See the—what I
say is misconduct. See what I say is perjury. Let
them make a proper decision on this case. Let
them hear the testimony of Mr. Liska. Hear the
testimony of Mr. Alvarez. See their statements.
So, I guess, that’s all.
THE COURT: Thank you for your argument.
Mr. Laske, Mr. Risby makes some pretty strong
arguments. What have you to say to what we just
heard?
MR. LASKE: Thank you, Your Honor, for the time.
This is Assistant U.S. attorney Tim Laske for
the record for the defendant.
I guess, first of all, before I go into any individual
ones—and I’m more than happy to do that, but the
overarching issue is this is an employment action.
He points to a number of things that happened
well after he no longer worked for the agency.
Some of these were unfortunate mistakes. I’ve at

App.29a

least expressed my apologies to him for like the
database error. That error to put it in the context—
THE COURT: How can something that serious happen?
Do you want to be accused by the government of
molesting children?
MR. LASKE: No. The allegation was that someone
took photographs of swimmers at a high school
swim meet. I don’t know why they classified it
that way. That was the allegation. The allegation
did not list his name on it. It did not list his
address or telephone number. If someone were ever
actually to investigate that issue, they would
have pulled up not Mr. Risby’s name, not Mr.
Risby’s address, and not Mr. Risby’s telephone
number. It would have had his Social Security
Number. It would have had that.
The other thing is the supervisor of Mr. Lozano
looked at that complaint and said to the agency
we’re not going to investigate this. We’re not
going to actually conduct an investigation. Put
that in the database. Store it wherever you store
it. That’s it. If anyone had dusted that off, they
would have not have seen Mr. Risby’s name on it.
Once someone entered it into the system,
separately there’s a national finance center. I
guess those two databases somehow connect. That’s
where it noticed the Social Security Number. The
computer changed the name, not an individual.
An individual didn’t go in there and change the
name. The logs don’t show that. We produced
evidence with our motion in a declaration saying
that. That was an unfortunate mistake. That is
what it was.

App.30a
Alfonso Lozano didn’t know Mr. Risby. Mr. Risby
didn’t know him. He didn’t work for us any more.
You know, the issue is in looking at this case,
there’s just no legal basis for the claims he’s
bringing in an employment context. He didn’t
suffer any adverse employment consequences out
of any of this. For two years—
THE COURT: So—
MR. LASKE:—he didn’t know—
THE COURT: Just a moment. Sounds like you admitted
a wrong. Is there a remedy for every wrong?
MR. LASKE: Unfortunately, I believe there is authority
that says not necessarily, no. Sometimes there
isn’t, unfortunately. If there was, time may have
have passed for him to bring such a claim.
THE COURT: All right. Continue.
MR. LASKE: Next for the OPR issue, a citizen, a
civilian non-federal employee brought a complaint
of misconduct. OPR investigated that. That’s what
they do. OPR didn’t bring the claim against him.
No other individual in the agency brought it
against him, not his former supervisors, or anyone
else who had ever been prior to these EEO cases.
An individual who had no association with ICE,
as far as I know. I think she was a photographer
for the Marshal Service who happened to be coming
out of the federal building at the same time Mr.
Risby was.
She told agent Foster she felt she was threatened
and upset. That doesn’t mean that is what he was
doing. That is what she said she felt was
happening. Agent Foster gave her some advice

App.31a
maybe in hindsight. I don’t know. That didn’t
affect any of his employment terms. He speculates
he would have settled with her. She is the one
who brought a misconduct claim against him. So
I don’t think she was really open to the idea of
settlement. She made statements to agent Foster

that she thought Mr. Risby was threatening.
Again, I don’t know if that’s true. Not really the
type of conduct you would expect from someone
who is willing to jump into settlement. I think
that’s very speculative at most.
Also, the big picture is OPR cleared him. They
cleared him of the misconduct claim. Agent Foster,
whether or not he knew Mr. Risby’s race or not.
He says he doesn’t. He found Mr. Risby didn’t do
anything wrong. So I don’t know how that could
even be a basis for retaliation or discrimination
when he was found to have done nothing wrong.
For the LEOSA card, I think we kind of have gone
around and around on this one. For the motion
to dismiss, the case was still new. I didn’t know
if there was a legal basis for him to bring the
LEOSA card claim beyond what I had seen. Plus,
I didn’t know until I did discovery if there was
some nuanced difference between the prior case
and this one. Through discovery, I believe I
confirmed it was the same. Nothing had changed.
The same actor Stacy Smith. Mr. Harris. Same
issues. Since we already litigated that case, I think
the Court’s tentative is correct on that point.
THE COURT: Okay. Folks, again, Mr. Risby, strong
arguments. I appreciate what you have to say.
I’m going to look at—

App.32a
MR. RISBY: Can I rebut something—
THE COURT: How much time do you need?
MR. RISBY: Just two or three minutes.
THE COURT: You’ve got two—hold on. One at a time,
please. You’ve got two minutes. Make it quick
please.
MR. LASKE: Can I make one point?
THE COURT: I thought you were finished? Was I
wrong?
MR. LASKE: I just had one thing, The agency keeps
reminding that his security clearance was revoked.
That negates his ability to get LEOSA card right
there. His security clearance was revoked.
THE COURT: Two minutes. We need to move on.
MR. RISBY: Yes, sir. Look at Exhibit 6. It is the
actual copy of the database. Clearly, my name is
there. My Social Security Number is there. The
city where I lived, Mission Viejo, and my Zip
Code is there, as well as my date of birth. So my
identifiers are there on that database. In addition,
to—this is not the first time they have put infor­
mation—false information in the—in a database
system against me. You can See Exhibit 10 will
explain that.
Furthermore, he gave—Mr. Foster gave—he
instructed Ms. Murphy not to talk to me. Not that
he did— he just didn’t give her, quote, some advice.
He says in his own statement, instructed. He wrote
those words out. He swore to them. He instructed
her not to have any contact with me. Ms. Murphy
had also previously lied in the previous investi-

App.33a
gation where she had claimed that I was rude to
her. She had lied. According to Roman Villa, an
OPR agent, he had told me that she had lied in
her statement. Okay. Those are the things that I
bring out in trial with Mr. Villa as a witness.
In addition, as far as the security clearance goes,
I provided information. The head of Internal Affairs
has said that my security clearance at the time
was not permanently revoked. So if I had had a
chance to continue on in my career, then I would
have been able to probably get my security
clearance back at sometime. I had to leave due
to my injuries.
In addition to that, there is a document when
Mr. Harris—Mr. James Harris first denied—well,
when he denied my appeal on the leak internally
within ICE for the LEOSA card, the appeal was
written by Larry Berger of—
THE COURT: Now, I’m not understanding why you
didn’t bring this up in your original argument.
This should be a reply. You’ve got one more minute.
MR. RISBY: Okay. I’m going to say as far as the
argument is good standing. There is a—I got this
through discovery. On that appeal letter, there’s
a handwritten note in the right-hand column that
says, I See your point. I find that he is in good
standing.
So that seems—a reasonable person would surmise
that Mr. Harris sent that up the chain for advice
either to legal counsel or to maybe his boss or
the director himself or—I have no idea. I need to
get Mr. Harris on the stand to ask him about.
Somebody internally said, hey, I do find him in

App.34a
good standing. So his argument about security
clearance is moot.
Their argument—Harris’ and Smith’s argument
about the good standing is—is just a pretext.
Internally they had information that I retired in
good standing, as well as my other evidence that
I provided in my brief, sir.
THE COURT: Okay. Mr. Risby, I understand your
arguments. The matter is under submission.
MR. RISBY: Thank you.
(Proceedings concluded at 11:15 a.m.)

App.35a
PETITION FOR REHEARING EN BANC
(MAY 20, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
VERNON WENDELL RISBY,
Plain tiff-Appellan t,
v.
-V
t.

KIRSTJEN NIELSEN, Secretary of
Homeland Security; TIMOTHY MOYNIHAN;
STACY M. SMITH; and JAMES HARRIS,
Defen dan ts-Appellees.
No. i7~56946
Appeal from the United States District Court
for the Central District of California
INTRODUCTION
Appellant Vernon W. Risby petition for rehearing
and rehearing en Banc of the Opinion of April 10,
2019, entering judgment in favor of Defendants and
affirming the decision of the Central District Court of
California. In the judgment of Counsel, the panel’s
decision in this matter overlooks material points of
law and does not address a resulting conflict with
another decision of this Court in .Anthony V Nigro, v.
Sears Roebuck & Company. See Anthony V Nigro, v.

App.36a
Sears Roebuck & Company, (9th Cir. 2015) No. 1257262 (The Ninth Circuit stated that it should not
take much for an employment discrimination plaintiff
to overcome a summaryjudgment motion. Nigro did so
here. Sears might still prevail at trial, but it did not
deserve to do so on summaryjudgment).
Also, because of this conflict, consideration by
the full court is necessary to secure and maintain
uniformity of the Court’s decisions. Furthermore, the
panel’s decision conflicts with the Supreme Court’s
decision in McDonnell Douglas Corp. v. Green, 411
U.S. 792, 93 S. Ct 1817, 36 L.Ed.2d 668 (1973) (Court
recognized that limited circumstantial evidence is
often necessary to afford a fair opportunity to show
that reasons provided by employer is pretext for a
racially discriminatory decision. Other evidence that
may be relevant, depending on the circumstances, could
include facts that petitioner discriminated against
respondent when he was an employee). Thus, the Three
judges panel’s decision substantially affects a rule of
national application in which there is an overriding
need for national uniformity. An en banc rehearing
by this Circuit is proper when (l) the panel decision
conflicts with a decision of the Supreme Court or a
decision of this Circuit so that consideration by the
full Court is necessary to secure or maintain uniformity
of the Court’s decisions or (2) the case involves a
question of exceptional importance because it conflicts
with an opinion of another court of appeals and sub­
stantially affects a rule of national application in which
there is an overriding need for national uniformity.
Fed. R. App. P. 35(b); 9th Cir. R. 35-1.
The panel’s decision in this matter overlooks
material points of law and does not address a resulting

App.37a

conflict with another decision of this Court. Also,
because of this conflict, consideration by the full court
is necessary to secure and maintain uniformity of the
Court’s decisions.
Furthermore, a large number of federal agents are
impacted by the decision herein. See Ronald Eugene
Duberry, Et Al., Appellants v. District of Columbia,
EtAl., Appellees; No. 15-7062.
ARGUMENT
Errors Made by the Three Judge Panel
The criteria for determining Montana case numer­
ates whether estoppel applies:
“ . . . first, whether the issues presented by
this litigation are, in substance, the same as
those resolved against the United States in
KiewitI. . . ”
Montana v. U.S., 440 U.S. 147 1979 at 156.
Mr. Risby’s Writ of Mandamus was limited to
narrow statutory parameters. The MANDAMUS action
only decided the issue of whether the Agency had a
statutory requirement to provide a retirement card.
1.
The first error (on page 3 of the three judge
panel’s opinion) is the mistaken finding that the
Plaintiff was attempting to broaden the scope of
BIVENS to assert employment discrimination. The
BIVENS action was in keeping with the ruling of the
D.C. Circuit in Duberry v. United States of America
{see below) and was a separate issue from the Title

App.38a

VII issues (interpreting 18 U.S.C. § 926B and 14th
Amendment rights under 42 USC § 1983.
2.
The Panel’s Finding (page 5 of the MEMORANDUM
decision by the Ninth Circuit’s three judge panel)
based on the testimony of Agent Christopher Foster’s
testimony was that Mr. Risby speculated without
relevant evidence and that there was no factual dispute
for purposes of summary judgment regarding Agent
Foster’s knowledge of Plaintiffs prior disability or
EEO activity. As an internal affairs investigator it was
Foster’s job to know the target he was investigating.
He knew that the Plaintiff was not working and on
federal workers compensation at the time he made
the monitored phone call to Mr. Risby’s home. Thus,
he must have known, contrary to his testimony that
Mr. Risby was disabled and the co record shows that
Mr. Risby’s photograph in the file showed that he is
African American.
3. Agent Foster perjured himself
Agent Foster committed perjury damaging the
EEO process and before the district corn t when he
stated in sworn affidavits and declarations he only
learned of Plaintiffs race when he attended the Mr.
Risby’s civil court case in May (after Plaintiff had
been removed from the agency due to on the job medical
reasons).
During discovery in the District Court case a
photograph of the Plaintiff w s found in agent Fostel’s
case file. Agent Foster’s willingness to commit perjury
in federal proceedings impeaches his claim that he
did not take adverse employment actions based on

App.39a
discrimination. These facts raise issues as to Foster’s
testimony regarding Mr. Risby’s race was a pretext.
Interference with Civil Accident Case. Agent
Foster, according to his own case affidavit, stated
under oath that he “Instructed” the defendant in the
civil case involving Plaintiff not to have any contact
with the Plaintiff which would impact the Plaintiffs
ability to settle his civil case before trial. Foster’s
conduct is clear evidence of retaliation and a hostile
work environment under the Title VII allegations that
are properly before the court. . . The fact that the
Agency allowed its employees, including federal agents,
to interfere in a private civil lawsuit raises issues of
harassment, discrimination and equal protection.
4. James Harris
The three-judge panel erred in its analysis of the
actions of James Harris. The panel stated the Harris
decision was entirely logical and appears to fall within
the bounds of the agency policy and that even if the
decision was faulty there was an honest mistake.
This analysis is faulty for the following reasons:
A.

This was not an honest mistake. The Plaintiff
was one of only three applicants that were
denied LEOSA ID cards from the agency
(All three applicants had prior EEQ activity
against the agency). Other similarly situated
law enforcement officers who were medically
retired from the Agency but who did not make
EEO claims were granted those cards.
Pretext may be established “either directly by
persuading the [trier of factl that a discrim­
inatory reason more likely motivated the
employer or indirectly by showing that the

App.40a
employer’s proffered explanation is unworthy
of credence” Mcdonnell Douglas Corp. v
Green, 411 U.S. 792, 93 S. Ct. 1817, 36 L.Ed.
2d 688 (1973); Todd A. White v. Baxter
Healthcare Corporation, Defendant-Appellee;
No. 07-1626. See also Texas Dept, of Comm.
Affairs v. Burdine, 450 U.S. at 256, 101 S.
Ct. 1089 1981.
During discovery Plaintiff asked for information
related to all other agency law enforcement officers
that were medically retired or separated and applied
for LEOSA ID cards and the agency’s response was it
did not keep those statistics.
■i"

B.

James Harris committed perjury. In sworn
declarations on record herein, James Harris
testified under oath that he did not have
knowledge of Mr. Risby’s prior EEO activity,
race, or disability. The LEOSA denial letter
James Harris signed indicated that he had
reviewed Mr. Risby’s LEOSA application on
page 5 where Mr. Risby discussed his prior
EEO activity. Additionally, Mr. Risby discussed
that he had been on Federal Worker’s Compen­
sation (OWCP) since February, 2012. Risby
indicated on-the-iob injuries and disability.
Additionally, LEOSA applicants were required
to submit a photograph of themselves via
email to the LEOSA Program Office. Such a
photograph would clearly indicate Mr. Risby’s
race. James Harris even states in his denial
letter that “Your application and appeal letter
has been thoroughly reviewed ... ”, Therefore,
Jamos Harris’ perjury clearly is evidence of

■ a.

App.41a

a pretext to justify discrimination and retali­
ation.
C.

'X- 't

Mr. Risby, the one employee that has proven
discrimination on three separate occasions
against the agency, was placed in a database
and listed as the subject a child pornography
allegation-an accidental mistake?

The fact such a “mistake” occurred raises the issue
of the whether invidious prejudice and retaliation
motivated such an accident. The “accident” has never
been explained other than to the extent that Agency
personnel have deemed the error to be inadvertent.
Such a bare assertion fails to shift the burden regarding
pretext. Thus, there are material issues related to pre­
text presented in Mr. Risby’s documentation opposing
the defense Motion for Summary Judgment.
D.

GS 14 level special agent Alfonso Lozano,
never gave a legitimate reason for placing
the Plaintiff social security number on a child
porn record and submitting it up the chain
of command to be placed in a database. Mr.
Risby also provided evidence in the appellate
brief and his previous Motion to Deny Sum­
mary Judgment that Agency Internal Affairs
previously created a false report against the
Plaintiff. Once again this is evidence of has
assessment which is an issue under Title
VII and an issue in this case.

5. The Proceeding Involves a Question of Excep­
tional Importance
The issues involved in this case involve a federal
agent, a federal agency and the LAW ENFORCEMENT

App.42a
Officers Safety Act. This is the only court case in
the country involving a federal agent and LEOSA. The
Court cannot expect Mr. Risby o have joined Title VII
issues in a previous Mandamus action; Risby was
required procedurally to go thru the EEO process before
moving on the federal court, additionally, there is a
documented previous pattern and practice of discrim­
ination by the agency against the Plaintiff.
6. The Opinion Directly Conflicts with the Decision
Other Circuits and Substantially Affects a Rule
of National Application in Which There Is an
Overriding Need for National Uniformity
The Court’s decision here is inconsistent with
the Duberry ruling. Ronald Eugene Duberry, Et Al,,
Appellants v. District of Columbia, Et Al., Appellees
(DC Cir. 2016); No. 15-7062. The D.C. Circuit court
found that LEOSA’s plain text, purpose, and context
show that Congress intended to create a concrete,
individual right to benefit individuals like Mr. Risby
and that it is within “the competence of the judiciary
to enforce.” See also Golden State, 493 U.S. at 106
(quoting Wright, 479 U.S. at 431-32).
CONCLUSION
Due to the opaque nature of decisions made behind
the bureaucratic veil, it is doubtful whether any
amount of discovery would have provided direct
evidence in the form of testimony or documentation
that would prove the motive to retaliate. The fact
that Agency made its decision in regard to the alleged
lack of good standing by means of an opaque process
raises issues of material fact. The questions raised by
Mr. Risby’s speculation involve the above referenced

;

App,43a
assertions of inadvertent mistakes on the Agency’s
part. Should such assertions be taken at face value
as evidence that shifts the burden to Ml Risby? It is
plain that Mr. Risby has sufficiently raised issues
regarding the alleged lack of good standing at the
time retirement and whether the Agency engaged in
creating a pretext to justify retaliation. For the
foregoing reasons, Appellant Vernon Wendell Risby,
by counsel, respectfully request that this Court grant
the request for a rehearing en banc.
Respectfully,

'■v i

Is/ Mark S. Knapp
Law Office of Mark Knapp PLLC
P.O. Box 914
Liberty Lake, WA 99019
(253) 202-2081
Lead Counsel for Plaintiff-Appellant
Dated: May 20, 2019

